      Department of Homeland Security




      Information Technology Management Letter for the
    Immigration and Customs Enforcement Component of
        the FY 2012 Department of Homeland Security
                  Financial Statement Audit




OIG-13-60                                       April 2013

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                             Washington, DC 20528 / www.oig.dhs.gov




                                   April 24, 2013


MEMORANDUM FOR:              Luke McCormack
                             Chief Information Officer
                             U.S. Immigration and Customs Enforcement

                             Radha C. Sekar
                             Chief Financial Officer
                             U.S. Immigration and Customs Enforcement

FROM: 	                      Frank Deffer
                             Assistant Inspector General
                             Office of Information Technology Audits

SUBJECT:                     InformationfTechnologyfManagementfLetterfforfthef
                             ImmigrationfandfCustomsfEnforcementfComponentfoffthef
                             FYf2012fDepartmentfoffHomelandfSecurityfFinancialf
                             StatementfAuditf
f

Attached for your action is our final report, InformationfTechnologyfManagementfLetterf
forfthefImmigrationfandfCustomsfEnforcementfComponentfoffthefFYf2012fDepartmentfoff
HomelandfSecurityfFinancialfStatementfAudit.ffThe independent accounting firm KPMG
LLP (KPMG) performed the audit of Department of Homeland Security (DHS) financial
statements as of September 30, 2012, and prepared this information technology (IT)
management letter.ff

KPMG is responsible for the attached IT management letter dated December 20, 2012,
and the conclusion expressed in it. We do not express an opinion on DHS’ financial
statements or internal controls or conclusions on compliance with laws and regulations.
The DHS management concurred with all recommendations.

Consistent with our responsibility under the InspectorfGeneralfAct, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Please call me with any questions, or your staff may contact Sharon Huiswoud, Director,
Information Systems Audit Division, at (202) 254-5451.
                                 KPMG LLP
                                 Suite 12000
                                 1801 K Street, NW
                                 Washington, DC 20006




April 4, 2013

Inspector General
U.S. Department of Homeland Security

Chief Information Officer and
Chief Financial Officer
U.S. Immigration and Customs Enforcement

We have audited the balance sheet of the U.S. Department of Homeland Security (DHS or
Department) as of September 30, 2012, and the related statements of net cost, changes in net
position, and custodial activity, and combined statement of budgetary resources for the year then
ended (referred to as the “fiscal year (FY) 2012 financial statements”). We were also engaged to
audit the Department’s internal control over financial reporting of the FY 2012 financial
statements. The objective of our audit engagement was to express an opinion on the fair
presentation of the FY 2012 financial statements and the effectiveness of internal control over
financial reporting of the FY 2012 financial statements.
In accordance with Government Auditing Standards, our Independent Auditors’ Report, dated
November 14, 2012, included internal control deficiencies identified during our audit
engagement that, in aggregate, represented a material weakness in information technology (IT)
controls and financial system functionality at the DHS Department-wide level. This letter
represents the separate limited distribution report mentioned in that report, of matters related to
U.S. Immigration and Customs Enforcement (ICE).
During our audit engagement, we noted certain matters in the areas of access controls,
configuration management, security management, and segregation of duties with respect to ICE
financial systems general IT controls (GITC) which we believe contribute to a DHS Department-
wide material weakness in IT controls and financial system functionality. These matters are
described in the General IT Control Findings and Recommendations section of this letter.
The comments described herein have been discussed with the appropriate members of
management, or communicated through Notices of Findings and Recommendations (NFRs), and
are intended For Official Use Only. We aim to use our knowledge of DHS’ organization gained
during our audit engagement to make comments and suggestions that we hope will be useful to
you. We have not considered internal control since the date of our Independent Auditors’
Report.
The Table of Contents on the next page identifies each section of the letter. We have provided a
description of key ICE financial systems and IT infrastructure within the scope of the FY 2012
DHS financial statement audit engagement in Appendix A; a description of each internal control
finding in Appendix B; and the current status of prior year NFRs in Appendix C. Our comments
related to financial management and reporting internal controls (comments not related to IT)




                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
have been presented in a separate letter to the Office of Inspector General (OIG) and the DHS
Chief Financial Officer.
This report is intended solely for the information and use of DHS management, DHS OIG, U.S.
Office of Management and Budget (OMB), U.S. Government Accountability Office (GAO), and
the U.S. Congress, and is not intended to be and should not be used by anyone other than these
specified parties.


Very truly yours,
                                   Department of Homeland Security

                                Immigration and Customs Enforcement 

                               Information Technology Management Letter
                                          September 30, 2012

                INFORMATION TECHNOLOGY MANAGEMENT LETTER

                                        TABLE OF CONTENTS

                                                                                             Page

Objective, Scope, and Approach                                                                1

Summary of Findings and Recommendations                                                       2

General IT Control Findings and Recommendations                                               3

   Findings                                                                                   3

       Configuration Management                                                               3

       Access Controls                                                                        3

       Segregation of Duties                                                                  3

       Security Management                                                                    3

              After-Hours Physical Security Testing                                           4

   Recommendations                                                                            4

      Configuration Management                                                                4

       Access Controls                                                                        5

       Segregation of Duties                                                                  5

       Security Management                                                                    5

Application Controls                                                                          5


                                           APPENDICES

Appendix                                        Subject                                      Page

           Description of Key ICE Financial Systems and IT Infrastructure within the Scope
   A                                                                                          6
           of the FY 2012 DHS Financial Statement Audit

   B       FY 2012 Notices of IT Findings and Recommendations at ICE                          8

           Status of Prior Year Notices of Findings and Recommendations and Comparison 

   C                                                                                         10
           to Current Year Notices of Findings and Recommendations at ICE




   Information Technology Management Letter for the Immigration and Customs Enforcement

     Component of the FY 2012 Department of Homeland Security Financial Statement Audit

                                   Department of Homeland Security

                                Immigration and Customs Enforcement 

                               Information Technology Management Letter
                                          September 30, 2012

                            OBJECTIVE, SCOPE, AND APPROACH

In connection with our engagement to audit the financial statements of DHS as of and for the year ended
September 30, 2012, we performed an evaluation of the general Information Technology (IT) controls
(GITCs) at ICE to assist in planning and performing our audit engagement. The Federal Information
System Controls Audit Manual (FISCAM), issued by the GAO, formed the basis of our GITC evaluation
procedures. The scope of the GITC evaluation is further described in Appendix A.

FISCAM was designed to inform financial statement auditors about IT controls and related audit concerns
to assist them in planning their audit work and to integrate the work of auditors with other aspects of the
financial statement audit. FISCAM also provides guidance to auditors when considering the scope and
extent of review that generally should be performed when evaluating GITCs and the IT environment of a
Federal agency. FISCAM defines the following five control functions to be essential to the effective
operation of GITCs and the IT environment.

�	 Security Management (SM) – Controls that provide a framework and continuing cycle of activity for
   managing risk, developing security policies, assigning responsibilities, and monitoring the adequacy
   of computer-related security controls.

�	 Access Control (AC) – Controls that limit or detect access to computer resources (data, programs,
   equipment, and facilities) and protect against unauthorized modification, loss, and disclosure.

�	 Configuration Management (CM) – Controls that help to prevent unauthorized changes to information
   system resources (software programs and hardware configurations) and provides reasonable assurance
   that systems are configured and operating securely and as intended.

�	 Segregation of Duties (SD) – Controls that constitute policies, procedures, and an organizational
   structure to manage who can control key aspects of computer-related operations.

�	 Contingency Planning (CP) – Controls that involve procedures for continuing critical operations
   without interruption, or with prompt resumption, when unexpected events occur.

To complement our GITC audit procedures, we assessed corrective actions implemented to address prior
year findings over technical security testing for key network and system devices and key financial
application controls in the ICE environment.




     Information Technology Management Letter for the Immigration Customs Enforcement

      Component of the FY 2012 Department Homeland Security Financial Statement Audit

                                          Page 1

                                    Department of Homeland Security

                                 Immigration and Customs Enforcement 

                                Information Technology Management Letter
                                           September 30, 2012

                   SUMMARY OF FINDINGS AND RECOMMENDATIONS

During FY 2012, ICE took corrective action to address some prior year IT control weaknesses. For
example, ICE made improvements in removing terminated network user accounts in a timely manner.
However, during FY 2012, we continued to identify GITC weaknesses that could potentially impact
ICE’s financial data. The most significant findings were related to Federal Financial Management
System (FFMS) configuration and patch management, and weaknesses over physical security and FFMS
segregation of duties. Collectively, the IT control deficiencies limited ICE’s ability to ensure that critical
financial and operational data were maintained in such a manner to ensure confidentiality, integrity, and
availability. In addition, these control deficiencies negatively impacted the internal controls over ICE
financial reporting and its operation and we consider them to contribute to a material weakness at the
Department level under standards established by the American Institute of Certified Public Accountants.
In addition, based upon the results of our test work, we noted that ICE contributes to the DHS’ non­
compliance with the requirements of the Federal Financial Management Improvement Act of 1996.

Of the 13 findings identified during our FY 2012 testing, 3 were new. These findings represent control
deficiencies in four of the five FISCAM key control areas: configuration management, access controls,
security management, and segregation of duties. Specifically, these control deficiencies include:

    1. Inadequately designed and operating configuration management;
    2. Lack of effective segregation of duties controls within a financial application;
    3. Lack of FFMS patch management; and
    4. Security awareness.

These control deficiencies may increase the risk that the confidentiality, integrity, and availability of
system controls and ICE financial data could be exploited thereby compromising the integrity of financial
data used by management as reported in DHS’ consolidated financial statements.

While the recommendations made by us should be considered by ICE, it is the ultimate responsibility of
ICE management to determine the most appropriate method(s) for addressing the weaknesses identified.




      Information Technology Management Letter for the Immigration Customs Enforcement

       Component of the FY 2012 Department Homeland Security Financial Statement Audit

                                           Page 2

                                  Department of Homeland Security

                               Immigration and Customs Enforcement 

                              Information Technology Management Letter
                                         September 30, 2012

            GENERAL IT CONTROL FINDINGS AND RECOMMENDATIONS

Findings:

During our engagement to audit the FY 2012 DHS financial statements, we identified the following ICE
GITC deficiencies that in the aggregate contribute to the IT material weakness at the Department level.

Configuration Management

�	 Security configuration management control deficiencies exist on the Active Directory Exchange
   (ADEX) and the Infrastructure Support systems network servers and workstations. These control
   deficiencies included default installation and configuration settings and protocols.
�	 Security configuration management over FFMS included:
   -    Network servers were installed with default configuration settings and protocols.
   -    Mainframe production databases were installed and configured without baseline security
        configurations.
   -    Servers and workstations have inadequate patch management.

Access Controls

�	 A lack of recertification of ADEX and FFMS system users.
�	 FFMS users were not properly authorized and approved.

Segregation of Duties

�	 FFMS roles and responsibilities for the Funds Certification Official and Approving Official profiles
   were not effectively segregated.

Security Management

�	 Procedures for transferred and terminated personnel exit processing have not been reviewed,
   implemented, nor authorized by ICE management.




       Information Technology Management Letter for the Immigration Customs Enforcement

        Component of the FY 2012 Department Homeland Security Financial Statement Audit

                                            Page 3

                                   Department of Homeland Security

                                Immigration and Customs Enforcement 

                               Information Technology Management Letter
                                          September 30, 2012

After-Hours Physical Security Testing:

We performed after-hours physical security testing to identify risks related to non-technical aspects of IT
security. These non-technical IT security aspects included physical access to media and equipment that
housed financial data and information residing within an ICE employee’s or contractor’s work area,
which could be used by others to gain unauthorized access to systems housing financial information. The
testing was performed at various ICE locations that process and/or maintain financial data. The specific
results are listed as shown in the following table:
                                  Exceptions Noted at     Exceptions Noted at        Exceptions Noted at
Exceptions Noted                    PCN – 4th Floor       Portals III – 4th Floor    801 I St – 7th Floor
Passwords                                  1                         2                        10
For Official Use Only
                                            3                        4                        15
(FOUO)
Keys                                        1                        0                         3
Personally Identifiable
                                            2                        3                         1
Information (PII)
Unlocked Laptops                            1                        2                         6
Server Names/Internet
                                            0                        1                         0
Protocol (IP) Addresses
Credit Cards                                0                         0                        2
Total Exceptions at ICE                     8                        12                       37

Recommendations:

We recommend that the ICE Chief Information Officer and Chief Financial Officer, in coordination with
the DHS Office of Chief Financial Officer and the DHS Office of the Chief Information Officer, make the
following improvements to ICE’s financial management systems and associated information technology
security program.

Configuration Management

�	 Implement continuous monitoring of the IT environment to assess, evaluate, and identify security
   vulnerabilities on a scheduled and recurring basis;
�	 Examine the default configuration installations and system services installed on FFMS network
   devices and remove unnecessary system services;
�	 Ensure that password configuration settings are properly and effectively applied;
�	 Assess the patch deployment and testing processes and develop a process for patching applications
   across the enterprise; and
�	 Implement appropriate FFMS database and network server patches and configuration baseline
   parameters consistent with DHS guidelines.




      Information Technology Management Letter for the Immigration Customs Enforcement

       Component of the FY 2012 Department Homeland Security Financial Statement Audit

                                           Page 4

                                  Department of Homeland Security

                               Immigration and Customs Enforcement 

                              Information Technology Management Letter
                                         September 30, 2012

Access Controls

�	 Enforce the existing policies and procedures to recertify FFMS user privileges at the end of each
   calendar year;
�	 Ensure ADEX user account recertification is completed annually; and
�	 Maintain FFMS access forms as evidence of approval and authorization of user accounts.

Segregation of Duties

�	 Enforce policies and procedures to ensure that assigned roles and responsibilities are commensurate
   with personnel job functions. Continue with the initiative to remove existing access conflicts and
   implement a monitoring plan to identify potential conflicts among user roles.

Security Management

�	 Complete the implementation of the policy which governs the exit clearance process and identifies the
   procedures that separating employees and contractors must take to ensure the return and\or
   safeguarding of government property, equipment, and systems; and the roles and responsibilities of
   ICE offices involved in the exit clearance process; and
�	 Prioritize security awareness in the Annual Information Assurance Awareness Training.


                                   APPLICATION CONTROLS

Select application controls were tested for the year ending September 30, 2012, and no issues were
identified associated with those controls selected for test work.




     Information Technology Management Letter for the Immigration Customs Enforcement

      Component of the FY 2012 Department Homeland Security Financial Statement Audit

                                          Page 5

                                                                           Appendix A
                          Department of Homeland Security

                       Immigration and Customs Enforcement 

                      Information Technology Management Letter
                                 September 30, 2012




                                 Appendix A
Description of Key ICE Financial Systems and IT Infrastructure
within the Scope of the FY 2012 DHS Financial Statement Audit




 Information Technology Management Letter for the Immigration Customs Enforcement

  Component of the FY 2012 Department Homeland Security Financial Statement Audit

                                      Page 6

                                                                                              Appendix A
                                   Department of Homeland Security

                                Immigration and Customs Enforcement 

                               Information Technology Management Letter
                                          September 30, 2012

Below is a description of significant ICE financial management systems and supporting IT infrastructure
included in the scope of the ICE component of the DHS FY 2012 financial statement audit.

Federal Financial Management System (FFMS)

The FFMS is a Chief Financial Officer designated financial system and certified software application that
conforms to OMB Circular A-127 and implements the use of a Standard General Ledger for the
accounting of agency financial transactions. It is used to create and maintain a record of each allocation,
commitment, obligation, travel advance and accounts receivable issued. It is the system of record for the
agency and supports all internal and external reporting requirements. FFMS is a commercial off-the-shelf
financial reporting system. It includes the core system used by accountants, FFMS Desktop that is used
by average users, and a National Finance Center payroll interface. The FFMS mainframe component and
14 servers are hosted at the DHS DC2 facility located in Virginia. FFMS currently interfaces with
Treasury, BMIS Web, and FedTraveler.

ICE Network

The ICE Network, also known as the ADEX E-mail System, is a major application for ICE. The ADEX
servers and infrastructure for the headquarters and National Capital Area are located in Mississippi and
Virginia. ADEX currently interfaces with the Diplomatic Telecommunications Service Program Office
ICENet Infrastructure.




      Information Technology Management Letter for the Immigration Customs Enforcement

       Component of the FY 2012 Department Homeland Security Financial Statement Audit

                                           Page 7

                                                                          Appendix B
                         Department of Homeland Security

                      Immigration and Customs Enforcement 

                     Information Technology Management Letter
                                September 30, 2012




                                Appendix B

FY 2012 Notices of IT Findings and Recommendations at ICE





Information Technology Management Letter for the Immigration Customs Enforcement

 Component of the FY 2012 Department Homeland Security Financial Statement Audit

                                     Page 8

                                                                                                                      Appendix B
                                                    Department of Homeland Security
                                                 Immigration and Customs Enforcement
                                                Information Technology Management Letter
                                                           September 30, 2012


FY 2012 NFR #                              NFR Title                            FISCAM Control Area       New Issue   Repeat Issue
 ICE-IT-12-01   FFMS Network and Servers were Installed with Default           Configuration Management                    X
                Configuration Settings and Protocols
 ICE-IT-12-02   FFMS Mainframe Production Databases were Installed and         Configuration Management                    X
                Configured without Baseline Security Configurations
 ICE-IT-12-03   FFMS Servers have Inadequate Patch Management                  Configuration Management                    X
 ICE-IT-12-04   FFMS Access Recertification Reviews are Not Completed               Access Controls                        X
 ICE-IT-12-05   Weak FFMA Segregation of Duties                                   Segregation of Duties                    X
 ICE-IT-12-06   Security Awareness Issues Identified During After-Hours           Security Management                      X
                Walkthrough
 ICE-IT-12-07   Lack of Procedures for Transferred/Terminated Personnel Exit        Access Controls                        X
                Processing
 ICE-IT-12-08   ICE Servers and Workstation have Inadequate Patch Management        Access Controls                        X
 ICE-IT-12-09   ICE Servers and Workstations were Installed with Default       Configuration Management      X
                Configuration Settings and Protocols
 ICE-IT-12-10   Lack of Recertification for ADEX Users                               Access Control          X
 ICE-IT-12-11   Inadequate FFMS User Access Request Forms                            Access Control          X




  Information Technology Management Letter for the Immigration Customs Enforcement Component of the FY 2012 Department 

                                      Homeland Security Financial Statement Audit

                                                         Page 9

                                                                             Appendix C
                            Department of Homeland Security

                         Immigration and Customs Enforcement

                        Information Technology Management Letter
                                   September 30, 2012




                                   Appendix C

Status of Prior Year Notices of Findings and Recommendations and

       Comparison to Current Year Notices of Findings and

                     Recommendations at ICE





   Information Technology Management Letter for the Immigration Customs Enforcement

    Component of the FY 2012 Department Homeland Security Financial Statement Audit

                                       Page 10

                                                                                                                                          Appendix C
                                                      Department of Homeland Security
                                                   Immigration and Customs Enforcement
                                                  Information Technology Management Letter
                                                             September 30, 2012

                                                                                                                                     Disposition
  NFR #                                                        Description
                                                                                                                            Closed         Repeat
ICE-IT-11-01   ADEX Resource Servers and Workstations have Inadequate Patch Management                                                        X
ICE-IT-11-02   Terminated/Transferred Personnel are not Removed from ADEX in a Timely Manner                                  X
ICE-IT-11-03   Access Recertification Review is not completed for FFMS                                                                        X
ICE-IT-11-04   Weak FFMS Segregation of Duties                                                                                                X
ICE-IT-11-05   Security Awareness issues were identified during Social Engineering                                            X
ICE-IT-11-06   FFMS Network and Servers were installed with Default Configuration Settings and Protocols                                      X
ICE-IT-11-07   FFMS Mainframe Production databases were installed and configured without baseline security configurations                     X
ICE-IT-11-08   FFMS servers have inadequate patch management                                                                                  X
ICE-IT-11-09   Default installation and configuration of Cisco routers on ICE Network                                         X
ICE-IT-11-10   Security Awareness issues identified during After-Hours Walkthrough                                                            X
ICE-IT-11-11   Lack of procedures for transferred/terminated personnel exit processing                                                        X




   Information Technology Management Letter for the Immigration Customs Enforcement Component of the FY 2012 Department 

                                       Homeland Security Financial Statement Audit

                                                          Page 11

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
